\:::




         ASSET        TESTIN'        FOR ELIGIBILITY:
                       PROFILES OF SIX
                  FEDERAL BENEFIT PROGRAMS




                                OAI-04-88-01280




  ., 'IIW/(t,..




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS



                                                  NOVEMBER 1988
                      OFFICE OF INSPECTR   GEN

The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity of programs

in the United states Department of Health and Human Services

(HHS). It does this by developing methods to detect and prevent
fraud , waste and abuse. Created by statute in 1976 , the
Inspector General keeps both the Secretary and the Congress fully

and currently informed about programs or management problems and

recommends corrective action. The OIG performs its mission by

conducting audits, investigations and inspections with

approximately 1 200 staff strategically located around the

country .

                OFFICE OF ANALYSIS   AN INSPECTIONS
This report is produced by the Office of Analysis and Inspections

(OAI), one of the three major offices within the OIG. 

                                                        The other

two are the Office of Audit and the Office of Investigations.

The OAI conducts inspections which are typically short-term

studies designed to determine program effectiveness
and vulnerability to fraud and abuse.               , efficiency

This inspection , entitled "Asset Testing for Eligibility:

Profiles of Six Federal Benefit Programs " was conducted at the

request of the President' s Council on Integrity and Efficiency.

The Council asked (1) how six major Federal needs-based programs

define and treat nonliquid assets to determine eligibility for
benefi ts and (2) what prior studies have found in this
                                                          area.
This report was prepared under the direction of Linda
                                                      Herzog,
the Regional Inspector General of Region IV Office of Analysis
and Inspections. Participating in the project were the
following people:

Atlanta Reqion                             Headauarter'
Ron Kalil (Project                                     s Office
                     Leader)               Penny Thompson
Betty Davis
Paulette Roberts
                       ASSET TESTING FOR ELIGIBILITY:
                  PROFILES OF SIX FEDER BENFIT PROGRA




                           RICHAD P.   KUSSEROW
                           INSPECTOR GENERAL




OAI-04-88-01280


OAI-04-88-01286                                   November 1988
                         EXECUIV SUMY


PUSE:
This inspection was conducted at the request of the President' 

Council on Integrity and Efficiency to review:

     how six major Federal needs-based programs define and treat

     nonliquid assets to determine eligibility for benefits; and

     what prior studies on the topic found and what actions they

     recommended for simplifying asset testing.


BACKGROUN :

The Federal Government' s benefit programs for individuals fall

into two general categories:


     insurance-based programs in which the individual recei ves
     benefits after financially contributing to the programs or

     serving in the military; and


     needs-based programs in which the individual must

     demonstrate financial need.  The individual neither
     contributes to the program financially nor renders a

     service in return for benefits received. Eligibility is
     based on income and other factors such as   assets.
In the second category, the following are the six largest

(measured by cash outlay) of the Federal needs-based benefit

programs:
     Medicaid ,which purchases medical care for persons unable to
     afford the cost of such care;

     Aid to Families with Dependent Children (AFDC), which
     provides a monthly cash allowance to children and their

     caretakers;
     Food Stamp, which provides coupons to households for

     purchasing food;
     Supplemental Security Income (SSI), which provides cash

     assistance to individuals who are aged, blind, or disabled;


     Section 8 Low-Income Housing Assistance, which subsidizes

     rent for families or individuals who are aged or disabled;

     and
     Pell Grant , which provides cash assistance to students for

    postsecondary education.
These six programs are examined in this study.  They are
administered by six different Federal agencies:  the Departments
of Housing and Urban Development (HUD), Education, Agriculture
and three different operating divisions of the Department of
Heal th and Human Services (HHS). Regulations are developed and
enforced by six separate entities.
At the local level, the six programs are administered by four

agencies. Pulic housing authorities manage the Section 8
program; postsecondary institutions administer Pell Grants; the
Social Security Administration (SSA) operates the SSI program;
and local welfare agencies (under State supervision or
administration) determine eligibility for the Food Stamp, AFDC,.

and Medicaiq programs. .

METHODOLOGY:

Interviews were conducted with regional and central office
officials in the Departments of Agriculture, Education, HUD , and
HHS. A review of laws , regulations , and program guidelines was
conducted. We also reviewed prior study findings and
recommendations on eligibility simplification and streamlining as
they relate to asset testing.

FINDINGS
    These programs operate independently of each other.
    Property defined as an asset in one program may not be
    considered for eligibility purposes in another.
    An obstacle to streamlining services to low-income persons
    is that each program uses its own definition and treatment
    of assets when determining eligibility. The requirements
    are a result of different statutes and regulations that
    govern asset testing.

    Basic eligibility data supplied and verified in one program
    must be resupplied and reverified for another program.

    There is more discretion in determining the value of assets
    than in evaluating other eligibility factors.
    Program complexities in the definition and treatment of
    assets increase the administrative burden of determining
    eligibility.  This can cause eligibility errors which result
    in misspent funds.
Previous studies have made a number of recommendations

relating to asset testing. The following are most relevant

to the purposes of this study:
- Standardize the definition, verification , and
  requirements for reporting of assets for needs-based
  programs.
- Develop easily understandable and uniform eligibility

  rules.
- Adjust asset limits to reasonable levels and update
  periodically to reflect economic change.
- Develop a common intake system to centralize the

  eligibility determination process.





                         iii

                 . . . . . . . ...........................................................................
                                                                     .....................................................................
                                                                                                                                         ....                                           ....... ..................
                                                                                                                                                                                        .........
                                                                                                                                            ..................................................-
                                                                                                                                         ..........................                               ................
                                                                                                                                                                                                        . ..........
                                                                                                                                                                                                            . ........
                                                                                                                                                                                                               ....
                                                                                                                                                                                             .......................
                                                                                                                                                                                                                   ................................................................... .... .. .. .




                                                                                                                            TABLE OF                                  CONTS

                                                                                                                                                                                                                                                                                                  Page
 INTODUCTION
               Background.
                                                                                                                                                                                                                                  . . . . . . . . . . . . . . . . 1



               Purpose and Scope                                                                              the               study.                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


               Methods.
                                                                                                                                                                                                                    . . . . . . . . . . . . . . . . . . . 3





 FINDINGS
               Maximum Allowable As sets.                                                                                                                                                                                                                                                         ..4
               Treatment                                   of Assets                                                   Program. . . . .

               Specifici ty                                                       Federal Regulations. . . 

               Determining Value......


               Specific Types                                                                  Assets.



               Jointly                           Owned Assets........ 




               Disposing                                  of Assets...............


REIEW OF PRIOR STUIES
               Treatment                                  of Assets................. 




               Verification                                                          Assets.
                                                                                                                                                                                                                                                                                        . . . 10
               Elimination                                         of Asset                                 Tests. 




               Recommendations                                                                     Prior
                     studies. 





NOTES.




BIBLIOGRAHY.




APPENDICES

           Appendix                                                   Benefits Paid                                                    and Recipients Served. . . ..                                                                                                                          A-l
           Appendix                                                   Description                                                          Programs. . . . . . . . . . . . .                                                                                                                  B-1
           Appendix                                                   Nonl iquid Assets Counted                                                                                                        Program. . . . . . . . . . . . C-1
           Appendix                                                   Review                                        Prior Studies                                                                                                                                                             D-l
                           INTODUCTION


This study examines the ways in which property assets affect

eligibility for six Federal programs of assistance to

individuals .

Backqround
The General Accounting Office (GAO) has identified 150 Federal

individual assistance programs. They fall into two groups:
     Fifty-five  (55) insurance-based programs provide benefits to
     individuals who financially contribute to the programs or

     serve in the military. Benefits are paid in some cases

     without regard to the client' s income or assets.


     Ninety-five (95) needs-based programs provide benefits to
     individuals who demonstrate financial need. The individual
     neither contributes to the program financially nor renders a
     service in return for the benefits   received. Eligibility is
     based on income and other factors such as assets.
Assets are generally divided into two categories: liquid and non-
liquid.   Liquid assets are those readily convertible to
disposable income. These assets include cash on hand, checking
and savings accounts, and stocks and bonds. Nonliquid assets
are real and personal property not readily convertible to
disposable income. These include homes , business property,
vehicles, life insurance , burial plots , household furnishings
equipment , clothing, and jewelry.
This study concentrates on the six largest (measured by cash

outlay) of the Federal needs-based benefit programs. Appendix A
provides figures on benefits paid and recipients
programs are:
                                                  served. The

     Medicaid

     Aid to Families with Dependent Children (AFDC)

     Food stamp

     Supplemental Security Income (SSI)

     Section 8 Low-Income Housing Assistance

     Pell Grant

The following table summarizes the benefits , recipients , an
administering agencies Gf these programs. (More detail can be
found in appendix B.
                           THE SIX LAGEST

                        NEEDS-BASED PROGRAS


                                                        FEDERAL
    PROGRA         BENEFITS          ISSUED TO        DEPARTMENT
  Food Stamp    Coupons to        Households         Agricul ture
                buy food

  AFDC          Cash assistance   Families (called   Health and
                                   assistance        Human Services
                                  groups" )          (HHS)
  SSI           Cash assistance Individuals or   HHS

                                married couples

  Medicaid	     Payment for       Individuals        HHS
                medical care
  Section 8     Rent subsidy      Families or        Housing and

                                  individuals        Urban Develop­
                                                     ment (HqD)
  Pell Grant	   Cash assistance Students             Education

                for postsecond­

                ary education



These programs are administered by six different Federal

agencies.   (Although three of the programs are within the
jurisdiction of HHS, they are administered by three separate
operating divisions within the Department.    Further, and
significant to this inquiry, program
and enforced by six separate entities.
                                      requlations are developed

At the local level, the six programs are operated by four types

of agencies:


     Public housing authorities (PHAs) manage the Section 8

    program.
     Postsecondary institutions administer Pell Grants.

    The Social Security Administration (SSA) operates the SSI

    program.
     Local welfare agencies conduct eligibility determinations

     for the Food stamp, AFDC , and Medicaid programs under state

     supervision or administration. In many local welfare

     agencies , the same person determines eligibility for all
     three of these programs.

PurDose and Scoce of the Study

This inspection was requested by the President' s Council on

Integrity and Efficiency (PCIE). The Council asked (1) how six
maj or Federal needs-based programs define and treat nonliquid

assets to determine eligibility for benefits and (2) what prior
studies have found in this area.

This analysis is limited to a review of Federal requirements for
asset testing. Al though state and local agencies operating these
programs may impose addi tional eligibility requirements relating
to assets , those rules are not considered here.



Methods
Interviews were conducted with regional and central office
officials in the Departments of Agriculture , Education, HUD and
HHS. Laws, regulations , and program guidelines were reviewed to
(1) determine major types of nonliquid assets defined by these

programs, and (2) compare definitions and treatment of these
assets in determining eligibility.

We reviewed more than 60 studies conducted since 1975 which

relate to eligibility in one or more of the six needs-based

programs examined here. These prior studies were identified

through bibliographies from other studies , journal articles , and
discussions with staff at Federal  agencies:  HHS, Agriculture
Education, HUD , GAO, and the Office of Management and Budget.
This report' s bibliography identifies those studies.
 ----------------------------------------------------------------------
   ---------- -------------------------- ----- --------------- ---------------   -_




                                        FINDINGS

    Maximum Allowable Assets

    All six programs in this study consider assets when determining

    eligibility; however, the programs vary in their treatment of

    assets.  Four of the programs have set maximum limits for the
    value of assets an individual or family may
    have no such specific limits.
                                                            own.
                                                      Two programs

    In the Food Stamp, AFDC, SSI, and Medicaid programs , the combined

    value of the assets is compared to the asset maximum allowed for

    the particular program. Each program sets the maximum at a
    different level.
    The Section 8 and Pell Grant programs do not have specified
    maximums. In these programs,  the value of the applicant' s assets
    is combined with the income and then compared to a maximum.

    Section 8 eligibility limits are based on the median income of

    the geographic area. Pell Grant eligibility limits are set for

    each school year by the Department of Education.

    To be eligible for the four programs which count assets

    independent of income, applicants may not have liquid and

    nonliquid assets combined exceeding these amounts:


   FOOD STAMP                AFDC                 SSI
r------------------------------------------------------------------ - -------­
                                                              MEDICAID
                                                                            -----1
     S2000 per                                                SSI-related
     household assistance
               group S1900                          SS!
                                                 limit*
                         S1000 per           01/01/88:

                                                         for Medicaid:


          less)01/01/89:
     S3000 per
     or older            (At State'
     household with option ,
     member(s) age 60
                                             individual
                                             S2850 for
                                     may be couple AFDC-           related
                                                             Medicaid: State'
                                                             AFDC limit*


              couple
                                            S2000 for Medically needy:
                                            individual Set by the States
              S3000  for

L - -


*Eligibility based on requirements for either SSI or AFDC.

Treatment of Assets bv Proqram

The following explains how the treatment of assets varies in each

program:
Food Stamp: Benefits are funded totally by Federal monies.

states must adhere to the eligibility criteria set by Federal

regulation. Therefore, the eligibility criteria and benefit
amounts are the same in every state.
To be eligible for food stamps a household' s income and assets 

must be below the amount set by the Federal regulations. The

income limit is based on household size.  The asset limit is the
same for all size households, although the limit is higher if the 

household has a member age 60 or  older. Once eligibility has
been established, Food stamp benefit amounts , called coupon

allotments, are based only on household size and income. Assets
are not included in the calculation of coupon allotment. 

Households are certified to receive food stamps for a specified

length of time , usually 6 months to 1 year, depending on the

anticipated stability of the household circumstances. At the end
of the certification period, every element of eligibility is

reviewed. However, if the household' s assets ever exceed the
maximum limit , even during a certification period, the household 

is no longer eligible for the program.

Aid to Families with Dependent Children (AFDC): Federal
regulations specify AFDC eligibility   criteria.However, states
may make the criteria more restrictive. For example , states may
count some assets which the Federal regulations allow to be

excl uded.
Both income and assets are used to determine eligibility, and

each must be below a specified amount. states set the income
limits, which depend on the size of the assistance group (usually
a family).  Federal regulations set the asset limit at $1, 000
regardless of the family size. However , states may set a lower
 imi t .
As in the Food stamp program, assets are used only to determine

eligibility and do not affect the amount of benefits. While a
family is eligible , benefits are based only on family size and
income. Assets are evaluated at every review--usually every six
months. At any time the assets exceed the limit, the assistance
group becomes ineligible.
Supplemental Security Income (SSI): The eligibility criteria for

SSI are uniform nationwide. Both income and assets must be below

specific amounts for the individual- or couple to be eligible.
Once eligibility is established , however , the monthly benefits
are based solely on income.
The regulations specify different asset limits for individuals

and for couples. If a recipient' s marital status changes , the

asset limit changes. If  assets ever exceed the appropriate
limit, the individual or couple becomes ineligible.
Medicaid: This program   does not have a single set of eligibility
requirements. Medicaid   eligibility is determined by applying the
AFDC or SSI program criteria to applicants who are potentially
eligible for those two programs. Applicants who qualify for
Medicaid in this way, along with other specific groups of people
Congress has designated , are termed " categorically eligible.
For the most part , the Medicaid asset limit for the AFDC- related
 categorically eligible" coverage groups is the same as the

State' s AFDC asset limit. The Medicaid asset limit for SSI-
related " categorically eligible" coverage groups is the same as
the SSI asset limit.
Those who do not qualify for AFDC or SSI because their income or
resources are above the program' s limits may still qualify for
Medicaid as " medically needy.           For these applicants the
eligibility rules are          based on AFDC or SSI but with modification.
For example, children may qualify for Medicaid as " medically
needy" if they meet all the AFDC criteria except the income
limitation.           "Medically needy" presumes they are not poor enough
to require cash assistance , but they still may not be able to
afford medical care.


For the " medically   needy" coverage groups , states set their own
asset limits. The Federal regulations require only that the
limits be based on family size, be uniform for individuals within
a coverage group, and be reasonable.
For the past several years, "   Congress has been adding more
coverage groups to the Medicaid program. Each  group has its own
set of eligibility criteria. Although the asset requirements
remain similar to those of the cash assistance programs (AFDC and
SSI), the eligibility policies are generally more liberal and
allow states greater flexibility.
section 8 Low-Income Housing Assistance: Although PHAs have some
flexibility in the administration of the Section 8 program , the
Federal regulations provide guidelines for the treatment of
assets.  There is no asset limit per se; either the income
derived from the asset or a percentage of the assets I value is
combined with the family' s proj ected annual income to determine
the family' s eligibility and its share of the rent.
If the assets' value totals $5000 or less , only the income from
the assets is counted. If the value exceeds $5, 000 , the greater
of either the income from the assets or a percentage of the
assets I value (currently 5. 5 percent) is counted.
Pell Grant: This program uses both income and assets to
determine the financial ability of the applicant and his/her
family to pay the costs of postsecondary education. A formula is
used to determine the amount of income and assets considered in
the calculation of eligibility and grant amount.

The formula combines income and assets of both the parents and

student.  For the asset portion of the calculation:

        The equity value of the asset is   determined.
        A specified amount of the equity is disregarded.   Only the
        excess is used in further calculations.

        A percentage of the amount from step 2 is combined with the

        income to determine eligibility and grant amount.

The basic formula for assessing the countable assets has several

exceptions:
        Assets are not counted at all for families with a total
        income of $15, 000 or less if they file the 1040A or 1040EZ
        tax forms , or do not file taxes at all.
        Homeplace value is not counted for displaced homemakers or

        dislocated workers.


        Assets are fully counted (i. e.no portion is disregarded) if
        owned by a dependent student or a single independent student

        with no dependents.

Specificity of Federal Requlations


Federal regulations regarding the types of nonliquid assets to

be counted or excluded are more specific for some programs than

for others. For example , Food stamp regulations provide fairly

explicit guidelines , whereas Section 8 regulations have very

little written guidance regarding assets. The policies which are

less specific are subject to varying interpretations by all

levels of staff involved with the programs.


Determininq Value


When determining the value of an asset, the six programs
generally consider the equity value (fair market value less
encumbrances). However, exceptions to the equity value pol icy do
occur.  The Food stamp program, for example, counts the full fair
market value of certain vehicles and real property.      still
another variation is the Section 8 program which deducts from
the value reasonable costs incurred in converting the asset to
cash.
SDecific Tves of Assets
The general premise for needs-based programs is that assets

count toward the determination of eligibility. However, in most

of the programs, certain types of nonliquid assets are either

totally excluded or have a specified amount of their value

excluded from the determination calculations.


Little consistency exists among the programs in the treatment of

specific assets. Treatment of an automobile is an example. The
AFDC program counts the equity value which exceeds $1500. The
Section 8 program excludes one automobile and the Pell Grant 

program excludes all automobiles. Exclusions in the SSI and Food
Stamp programs depend on the automobile's use.  Appendix C shows
how each of the six programs counts specific assets most

frequently owned by individuals who apply for assistance.

Jointl v-oed Assets
All six programs generally agree on the treatment of nonliquid

assets owned jointly by the applicant and a nonapplicant. The
programs count only that part of the asset available to the

applicant for liquidation. The Food Stamp and Section 8 programs

specifically define the portion considered available to the

applicant. The other programs have less specific regulations
which are subj ect to varying interpretations by the agencies
which determine eligibility. The Pell Grant program does not

mention j oint   ownership at all. 

DisDosina of Assets


Four of the six programs have rules governing disposal of assets
at less than fair market value for the purpose of qualifying for
ass stance. Pell Grant and AFDC Federal policies do not provide
for penal ties for disposing of assets. However, in the AFDC
                                                      ties.
program , States have the option of imposing such penal      The
chart on the following page illustrates the rules and associated
penal ties of the other four programs.
                POLICIES FOR DISPOSING OF ASSETS 


                IF DISPOSITION                       THE PENALTY

  PROGRA           OF ASSETS                         REMAINS IN
   NAM          OCCURS WITHIN...    THE PROGRA...    EFFECT FOR...

  Food Stamp
    3 months prior    disqualifies      up to 12

                 to application    the applicant.    months    based
                                                     on difference
                                                     between fair
                                                     market value
                                                     and amount of
                                                     compensation.
  SSI*         24 months prior counts in deter- up to 24
  (for assets
 to application mining eligi-     months,
  transferred                      bili ty the  based on type
  prior to
                    difference be-   of asset and
  7/1/88 )                     tween fair       uncompensated
                               market value and value.
                               amount of
                                   compensation.
  Medicaid      30 months prior	counts in deter- based on un­
  (Institu­     to insti tution-	 mining
                                       eligi-    compensated
  tionalized    alization	        bility
                                       the       val ue.
  individuals                   difference be­
  only**)                       tween fair
                                market value and
                                amount of
                                   compensation.
  Section 8
    24 months prior	 counts in deter- 24 months
                to application
 mining eligi­
    from date of
                                bility the
       disposition.
                                difference be­

                                tween fair

                                market value and

                                   amount of
                                   compensa tion.



*Transfers occurring after 7/1/88 have no effect on SSI

eligibility.
**Medicaid does not penalize individuals living in the
  community for disposing of assets to qualify for the        program.
                       REEW OF PRIOR STUIES
Many studies have been done since 1975 on various aspects of

welfare reform and integration of  services. Relatively few of
them specifically address asset testing for eligibility

determination. The vast majority of prior studies , when

eligibility factors are examined, focus on income testing. We
have selected 16 prior studies which specifically identify the

testing of nonliquid assets in one or more of the six programs we

examined. The following is a sumary of those studies. Many
the findings they report are confirmed by our own research.
Appendix D contains brief descriptions of the findings and

recommendations of individual studies as they relate to asset

testing.
Treatment of Assets


Programs administering benefits for low-income persons do not

operate as a system. They operate independently of each other.
An asset in one program may not be considered an asset for

eligibility purposes in another program.   One of the obstacles to

streamlining services to low-income persons is that each needs-

based program uses its own definition and treatment of assets when

determining eligibility. For example, asset limits are defined

differently among the programs. 


Each Federal agency providing benefits follows different asset-

test requirements when determining eligibility. The requirements
are a result of different statutes and regulations which govern

asset testing. Not only are the asset-test requirements different

from program to program but they are also complicated to administer
within each program. Complexity of asset rules and variations from
one program to another are hindrances to meeting the basic needs of
clients. 4 A recipient can be " poorer" by one program' s rule-- and
thus, qualify for its benefits--while ineligible in another. 5 A
family can have income low enough to qualify for both AFDC and food
stamps , only to be found ineligible for AFDC because the family car
is worth too much.

These overlaps ,gaps , and program complexities in asset-tested
programs cause administrative inconsistencies and coordination

problems which not only increase the burden of determining

eligibility7 but can also cause eligibility errors which result in
misspent funds.
Verification of Assets


While this study did not address the verification of assets , prior

studies found variances in the verification methods.


Differences in the definition and treatment of assets from program

to program (and in some cases from state to state 9) contribute to

assets being verified in different ways by each program. 

Eligibility data supplied and verified in one program must be

resubmitted to another program and reverified.

Verification of the value of assets can also differ from worker to

worker within each program. There   is more administrative
difficulty and discretion in valuing assets than any other of the

eligibility determination factors.

Verification requirements and practices are not adequate to
prevent improper payments. The requirements are either extremely
vague or overly restrictive and can result in erroneous

eligibility payments .


Elimination of Asset Tests


While asset testing and verification varies from one program to
another and causes inconsistencies , removal of assets as an
eligibility determinant would be    costly.Asset testing excludes
many applicants from the programs. For example , asset tests in
the Food stamp program reduced eligibility by 12. 3 million persons
at a savings of $2. 9 billion a year.

Recommendations of Prior studies

Previous studies have made a number of recommendations relating to

asset testing. The following are most relevant for purposes of

this study:


- Standardize the definition , verification, and requirements for

  reporting of assets for needs-based programs.
- Develop easily understandable and uniform eligibility

  rules.
- Adjust asset limits to reasonable levels and update
  periodically to reflect economic change.
- Develop a common intake system to a centralize the

  eligibility determination process.

      p.




                                                            NOTES


      United states General Accounting Office. 
                               Federal Benefit
      Proqrams: A Profile                                  GAO/HRD 86-14.   October 1985.
             ii.
      United states Office of Management and Budget.
      Eliqibilitv Simplification Proiect   October 1980.
      pps. 9-10.
      United states General Accounting Office, Testimony.

      Inteqration of Services for Low-Income Families

      GAO/T-HRD-87-9. September 1987. p. 2.

      United states Department of Health, Education and

      Welfare.  Welfare Reform: Final National Summarv
      Recort on Reqional Outreach   April 1977. p. C-8.
      Illinois Bureau of the Budget. Streamlininq                                Social
      Benefit Proqrams   Fall 1976. p. 37.


      Southern Governors' Association. 
                             Studv of the
      AFDC/ Medicaid El iqibil          i tv Process                  in the Southern
      States               April 1988. p.
      Uni ted          States General Accounting Office.                      Federal
      Domestic Food Assistance Proqrams: A Time for
      Assessment and Chanqe   CED-78-113. June 1978. p.                                   48.
      Office of Inspector General, United States Department

      of Health and Human Services. 
 Eliqibilitv Errors
      Resul tinq in Misscent Funds in the Medicaid Proqram
      OAI-04-87-00014. May 1988. p.
      United States General Accounting Office. 
                              Medicaid:
      Interstate Variations in Benefits and Excendi                              tures
      GAO/HRD-87-67BR. May 1987. p. 18.
10.   united States General Accounting Office.
      Verification and Privacy in Federal Benefit Proqrams:
                                                                              Eliqibilitv
      A Delicate Balance   GAO/HRD-85-22. March 1985. p. 7.
11.   United States Office of Management and Budget.
      Eliqibilitv Simclification Proiect   October 1980.
      p. 10.


12.   Illinois Bureau of the Budget. Streamlininq                                Social
      Benefit Proqrams   Fall 1976. p. 71.
      p.




13.   United states General Accounting Office.

                                                  Leaislative
      and Administrative Chanaes to Imorove Verification of
      Welfare Recioients' Income and Assets Could Save
      Hundreds of Millions   HRD-82-9. January 1982.
      pps. 23-24.

14.   Food and Nutrition Services , United States Department
      of Agriculture. 
 Assets of Low-Income Households: New
      Findinas on Food Stamo particioants    January 1981.
             ii.
                                           BIBLIOGRAHY

Advance Technology, Inc., "Title IV Quality Control Policy

Option:  Final Report on the Evaluation of Data Element
Reduction, " stage 1, Phase V , prepared for the Department of
Education, June 1985.
Advance Technology, Inc. and Westat, Inc., "Title IV Quality
Control Project, " stage Two Executive Sumary, prepared for the
Department of Education, Contract numer 300-84-0020 , August
1987.
Advance Technology, Inc. and Westat , Inc., "Title IV Quality

Control Study, " Stage Two, Final Report, Volumes I and
prepared for Department of Education, Contract numer 300-84­
                                                                   II,
0020 , June 1987.
Bureau of the Budget, State of Illinois , "Who Should Benefit ­

Streamlining Social Benefit Programs, " Volume 1 , Fall 1976.


Congressional Research Service, "Cash and Noncash Benefits for

Persons with Limited Income: Eligibility Rules, Recipient and
Expenditure Data, FY 1984-86 " September 10 , 1987.

Cox , George H. Jr. , Donna R. Brogan and Millicent Ann Dandridge,
"The Effectiveness of Home Visitation in Reducing AFDC Case

Payment Errors, Social Service Review , Volume 60, November 4

December 1986 , pps. 603-618.


Department of Health and Human Services,
                                          Characteristics of state

Plans for Aid to Families with DeDendent Children under the

Social Security Act of Title IV-A , 1985 Edition.


Department of Health and Human Services, "Evaluation of the

Relative Cost-Effectiveness of AFDC Corrective Actions " Volumes

I, III, and IV , November 1984.

Department of Health and Human Services,
                                          Profile of State

Performance in the Aid to Families with DeDendent Children
Proqram 1981 , SSA Pub. No. 80-08031, October 1984.

Department of Health and Human Services , "Welfare Reform Final
National Sumary Report on  Regional Outreach,            " April
                                                      15, 1977.
Department. of Health, Education and Welfare, "Alternatives to the
Pres nt Welfare System - A Selected Bibliography, " August 1969.
Dukert, Joseph M. , "Who is Poor? Who is Truly Needy?     Public
Welfare Maqazine , Volume 41, Number 1, Winter 1983 , pps. 17-22.
 Food and Nutrition Service, Department of Agriculture, "Assets of
 Low-Income Households: New Findings on Food Stamp Participants
 and Nonparticipants, " Report to the Congress, January 1981.
 General Accounting Office, "A Central Wage File for Use by

 Federal Agencies: Benefits and Concerns, II GAO/HRD-85-31, May 21,
 1985.
 General Accounting Office, IIEligibility Verification and Privacy
 in Federal Benefits Programs: A Delicate Balance, " GAO/HRD-85-22
 March 1, 1985.
 General Accounting Office, IIError in the Pell Grant Program,

 testimony before the House of Representatives' Subcommittee on

 Postsecondary Education, June 27 , 1985.

 General Accounting Office, "Federal and State Liability for

 Inaccurate Payments of Food Stamp, AFDC, and SSI Program

 Benefits , II GAO/RCED-84-155, April 25,   1984.
 General Accounting Office , IIFederal Benefits Programs:

 Profile, II GAO/HRD-86-14, October 17,   1985.
 General Accounting Office, "Federal Domestic Food Assistance
 Programs: A Time for Assessment and Change, II CED-78-113, Report
 to the Congress by Robert F. Keller, Acting Comptroller General,
 June 13 , 1978.


 General Accounting Office, "Federal Efforts to Simplify the Aid

 to Families with Dependent Children, Medicaid, and Food Stamp

 Program Requirements and Quality Control Procedures, " GAO/HRD-82­

   , May 18, 1982.


 General Accounting Office , "Federal Funding-Information on

 Selected Benefit/Mandatory Spending Programs " GAO/AFMD-88-31FS

January 1988.
General Accounting Office , IIFinancial Management Overall Plan

Needed to Guide System Improvements at Education, II GAO/AFMD-88­

15, December 1987.

General Accounting Office, " Food Stamp Program-Restoration of

Improperly Denied or Terminated Benefits " GAO/RCED-87-51,

October 1986.
 General Accounting Office, IIFood Stamp Program-Results
"Simplified Application Demonstration Project " GAO/RCED-87-102

 June 1987.


General Accounting Office, "Food Stamp Program-Statistical

Validity of Agriculture' s Payment Error-Rate Estimates,

GAO/RCED-87-4 , October 1986.

General Accounting Office, "Further Actions Needed to Improve

Management of HUD Programs, " CED-81-41, February 26, 1981.

General Accounting Office, " GAO Observations on the Use of Tax

Return Information for Verification in Entitlement Programs,

GAO/HRD-84-72, June 5, 1984.

General Accounting Office, "Grant Formulas-A Catalog of Federal

Aid to states and Localities, " GAO/HRD-87-28, March 1987.

General Accounting Office, "Housing Programs-Funding Approach

for HUD' s Section 8 Certificate Program Needs Changing,

GAO/RCED-88-136, April 1988.
General Accounting Office, "Implementing GAO' s Recommendations on
the Social Security Administration' s Program Could Save
Billions " HRD-81-37 , December 31, 1980.
General Accounting Office, "Integration of Services for Low-

Income Families, " Testimony before the House of Representatives

Select Committee on Hunger, GAO/T-HRD-87-17 , September 30, 1987.


General Accounting Office , "Legislative and Administrative
Changes to. Improve Verification of Welfare Recipients' Income and
Assets Could Save Hundreds of Millions " HRD-82-9, January 14
1982.
General Accounting Office, "Lenient Rules About the Occupancy of

Low Income Housing by Ineligible Tenants, " CED-81-74, April 27

1981.
General Accounting Office, "Managing Welfare-Issues and 

Alternatives for Reforming Quality Control Systems " GAO/HRD-86­

117BR , August 1986.
General Accounting Office, "Many Proprietary Schools Do not

Comply with Department of Education' s Pell Grant Program
Requirements " GAO/HED-84-17 , August 20 , 1984.
General Accounting Office, "Medicaid Interstate Variations in

Benefits and Expenditures, " GAO/HRO-87-67BR, May 1987.

General Accounting Office , "Millions Can be Saved By Identifying

Supplemental Security Income Recipients Owning Too Many Assets,
HRD-81-4, February 4, 1981.
General Accounting Office , "Needs-Based Programs-Eligibility and

Benefit Factors " GAO/HRD-86- 107FS, July 1986.

General Accounting Office , "Pell Grant Validation Imposes Some

Costs and Does Not Greatly Reduce Award Errors: New Strategies

Are Needed " GAO/PEMD-85-10 , September 27 , 1985.

General Accounting Office , "Potential Reduction in the Section 8

Existing and Voucher Inventory, " GAO/RCED-87-20FS.

General Accounting Office , "Section 8 Subsidized Housing-some

Observations on Its High Rents, Costs, and Inequities, " CED 80­
59, June 6, 1980.
General Accounting Office, "Social Security Needs to Determine

the Cost Effectiveness of the Supplemental Security Income

Redetermination Process and to Implement Recommendations Made for

Eliminating Erroneous Payments " GAO/HRD-82-126 , September 2

1982.
General Accounting Office , "Social Securitt Should Obtain and Use

State Data to Verify Benefits for All Its Programs, " HRD-80-4

October 16, 1979.


               1980.
General Accounting Office, "U. S. Income Security System Needs

Leadership, Policy, and Effective Management, " HRD-80-33,

February 29

General Accounting Office, "Welfare-Expert Panels' Insights on

Maj orReform Proposals " GAO/HRD-88-59, February 1988.
General Accounting Office , "Welfare-Income and Relative Poverty

Status of AFDC Families " GAO/HRD-88-9, November 1987.
General Accounting Office , "Welfare Issues to Consider in

Assessing Proposals for Reform, " GAO/HRD-87-51BR, February   1987.
General Accounting Office, "Welfare Reform-Bibliographies of

Case Management and Agency/Client Contracting, " GAO/HRD-88-61FS

March 1988.
General Accounting Office , "Welfare Simplification-Projects to

Coordinate Services for Low-Income Families " GAO/HRD-86-124FS

August 1986.
General Accounting Office , "Welfare Simplification-Service

Integration Demonstrations Under the 1984 Deficit Reduction Act
GAO/HRD-86-125BR, August 1986.
General Accounting Office , "Welfare Simplification Thirty-two

States' Views on Coordinating Services for Low-Income Families

GAO/HRD-87-6FS.
Graduate School of Public Policy, University of California,
"Special Issue of the HEW MEGA-Proposal  Policy Analysis
Volume 1, NUmber 2, Spring 1975.
Hagenaars, Aldi and Klas deVos , "The Definition and Measurement

of Poverty, Journal of Human .Resources , Volume 23, November 2
Spring 1988, pps 211-221.
Hansenfeld, Yeheskel, "citizens Encounters with Welfare State

Bureaucracies Social Service Review , Volume 59, Numer 4,
December 1985, pps. 622-635.
Maximus, Inc., "A Study of the Characteristics of Medicaid
Ineligibles, "prepared for the Department of Health, Education
and Welfare, April 30 , 1980.


National Council of State Human Service Administrators of the

American Pulic  Welfare Association, "Comparison of Food stamp
and AFDC Program Requirements with Recommendations for Change

July 1986.


Office of Inspector General, Department of Health and Human
Services , "Eligibility Errors Resulting in Misspent Funds in the
Medicaid Program, " OAI-04-87-00014 , May 1988.

Office of Inspector General, Department of Health and Human

Services, "Errors Resulting in Overpayment in the AFDC Program

OAI-04-86-00024 ,   June 1987.
Office of Inspector General, Department of Health and Human

Services, "Medicaid Estate Recoveries, " OAI-09-86-00078 , June

1988.
Office of Inspector General, Department of Housing and Urban

Development , "Area Office Procedures for Monitoring PHAs'
Compliance with the Requirements of Section 8-Housing Assistance
Payments Program (Existing), " 82-CH-I03-0001, December 2, 1981.
Office of Inspector General, Department of Housing and Urban

Development, "Report on Special Operational Survey-Section 8

Leased Hous ing Program, " July 16 , 1979 


Office of Inspector General, Department of Housing and Urban

Development, "Survey Report - Housing Assistance Payments for
Non-Insured Section 8 Projects , New York Regional Office
86-NY-I03-0003 , June 11, 1986.
Office of Management and Budget, " Eligibility Simplification
proj ect " an interagency study with recommendations for
simplifying client eligibility, October 1980.
Reishaver , Robert D., "The Prospects for Welfare Reform, Public
Welfare Maaazine , Volume 44 , Number 4, Fall 1986 , pps. 4-11.
Shuptrine, Sarah C. and Vicki C. Grant , "Study of the

AFDC/Medicaid Eligibility Process in the Southern States " Sarah

Shuptrine and Associate for the Southern Governor' s Association,

April 1988.
Vigiliante, Florence Wexler and Mildred D. Mailick, "Needs-
Resource Evaluation in the Assessment Process, Social Work:
Journal of the National Association of social Workers , March-
April 1988, Volume 33, Numer 2, pps. 101-109.
Warlick, Jennifer, "Participation of the Aged in SSI, Journal
of Human Resources , Volume 27 Numer 2, Spring 1982, pps. 236­
260.
Weinberg, Daniel H., "Filling the Poverty Gap: Multiple Transfer
Program Participation, Journal of Human Resources , Volume 20
Numer 1, Winter 1985, pps. 64-89.
Young, John D. , "Reflections on the Root Causes of Fraud , Abuse
and Waste in Federal Social Programs, public Administration
Review , Volume 43, Numer 4 , July/August 1983, pps. 362-369.
                                       APPENDIX A 


                      BENFITS PAID AND RECIPIENS SERVED 


According to a Congressional Research Service for Congress , the

six needs-based programs discussed in this report paid out

$100 billion in Fiscal Year (FY) 1986:



                        BENEFITS PAID FY 1986 (BILLIONS)
                      Federal              State/Local                 Total
Medicaid              $24. 995              $19. 730                  $44. 725
AFDC                       536                    221                  17. 757
SSI                    10. 307                    514                  12. 821
Food stamps            12. 528                    938                  13. 466
Section 8                  430                                            430
Pell Grants                862                                            862
Total                 $68. 658              $31. 403                $100. 061


According to the same Congressional study, the                     numers of
program recipients in Fiscal Year 1986 were:



                    RECIPIENTS SERVED FY 1986 (MILLIONS)
                     Recipients                         Period
Medicaid                22. 592                         Annual
AFDC                    10. 995                   Monthly Average

SSI                         449                   Monthly Average

Food Stamps             20. 900                   Monthly Average

Section 8                   143*                        Annual 

Pell Grants                 881                         Annual 

      Families (Dwellings Units)



Source of Information: Congressional Research Service. 

                                                                                   Cash and

Noncash Benefits for Persons with Limited Income: Eliqibilitv
Rules and Expenditure Data. FY 1984-86                             By Vee Burke. Rept. no.
87-759 EPW , Washington , D.                             Library of Congress , 1987.



                                           A-I

                               APPENDIX B

                        DESCRPTION OF PROGRA


FOOD STAM
PUrDose     To promote the general welfare and to safeguard the
heal th and well-being of the nation' s population by raising the
level of nutrition among low-income households.


DescriDtion This program provides free coupons for el gible
households to use for purchasing food in retail    stores.The
benefits are not expected to meet the household' s full need for
food , but rather supplement the funds they have available for
this purpose. The coupons are issued monthly     Although the
program is administered by states through local public welfare
agencies , states have few options in how the program is managed.
The Federal regulations establish the eligibility criteria and
benefit amounts to which states must adhere.
Fundina
     Benef i ts :        100 percent Federal
     Administration:     Federal/ state
                         Federal share is based on the state' s error
                         rate and is generally 50-60 percent.

Federal Aaency	     Department of Agriculture

                    Food and Nutrition Service

Authorization:	     Food Stamp Act , 1964
Reaulations	        7 CFR 271-279 et    seq.

AID TO FAMLIES WITH DEPENDENT CHILDREN (AFDC)
PurDose   To encourage the care of dependent children in their
own homes or in the homes of relatives by enabling states to

furnish financial assistance to the families.
DescriDtion states provide monthly cash assistance payments to
meet basic needs of children (and their eligible caretakers) who
are deprived of parental support because at least one parent is
absent, incapacitated, deceased, or (in some states) unemployed.
States establish their own income limits and benefit amounts;
however, the asset limit ($1 000) is set by Federal regula ion.
States administer the program through local public welfare
agencies.  Recipients of AFDC are automatically eligible for
Medicaid benefits.



                                  B-1
Fundina
     Benefi ts:	           Federal/state
                           Federal share is based on State' s per
                           capita income. In Fiscal Year 1987 , the
                                                       50-78. 5
                           cent.
                           Federal share ranged from              per­

     Administration:	      Federal share is 50 percent, with
                           increased funding for the development
                           of automated systems.
Federal Aaency	    Department of Health and Human Services

                   Family Support Administration

Authorization:	    Social Security Act, Title IV-A
Reaulations	       45 CFR 200 et   seq.

SUPPLEAL SECUTY INCOME (SSI)

PurDose    To provide supplemental security income to indi viduals

who are age 65 or older, or are blind or disabled.

DescriDtion   The Federal Government provides monthly cash
assistance payments to low- income individuals who are aged,
blind, or disabled. The program is administered by the Social
Security Administration. Benefits may be issued to either an
individual or to a husband and wife who both meet the
eligibility criteria.  In most states, eligibility for SSI
automatically qualifies the individual for Medicaid. In other
States, criteria more restrictive than the SSI standards are used
to determine Medicaid eligibility.

Funding	           100 percent Federal
Federal Aaencv	    Department of Health and Human Services

                   Social Security Administration

Authorization:	    Social Security Act, Title XVI
Reaulations	       20 CFR 401 et   seq.

MEDICAID

PurDose   To enable States to furnish (1) medical assistance for
families with dependent children and for aged , blind , or disabled
individuals whose income and resources are insufficient to meet
the costs of necessary medical services and (2) rehabilitation
and other services to help such families and individuals attain
or retain capability for independence or self- care.



                                   B-2
DescriDtion   The Medicaid program purchases medical care for low-
income families with dependent children and for low-income aged

blind, or disabled individuals. Health care providers 	      ill the
state for their services and are paid with a combination of S.
and Federal funds. The medical care may include prescription

                                                                 tate
drugs, hospital, l	aboratory, nursing home , and physician services.

states may design their Medicaid programs wi thin broad Federal

limits.  Generally, eligibility can cover two groups of people.
The first group is the " categorically needy, " which includes

persons receiving assistance under the AFDC or SSI program. The
second group is referred to as " medically needy.       At the option of

each state, persons who do not meet the " categorically needy"

requirements because of excess income or assets , but cannot afford

to pay for necessary health care , can be made eligible for Medicaid

under the " medically needy" category.
Medicaid programs differ greatly from state to state because of
variations such as benefits offered , groups covered, and income
and assets allowed. Eligibility criteria for the " categorically
needy" are generally the same as the criteria for either the AFDC

or SSI programs. "Medically needy" criteria are usually related to

a State' s AFDC requirements, but the income and resource limits

are higher.


states administer the Medicaid program through local public

welfare agencies.


Funding
     Benefits:	        Federal/state
                       Federal share is based on state' s per
                       capita income. For Fiscal  Year 1986 , the
                       Federal matching rate averaged 55 percent.
     Administration:	 Federal/state
                       Federal share is generally 50 percent
                       but can be higher for certain items.
Federal Aqencv	   Department of Health and Human Services
                  Heal th   Care Financing Administration
Authorization:	   Social Security Act , Title XIX
Requlations	      42 CFR 430 et   seq.

SECTION 8 LOW-INCOME HOUSING ASSISTANCE


PUrDose   To help lower-income families obtain housing which is
decent, safe , and sanitary, and to promote economically mixed
housing.


                                   B-3

DescriDtion   The Federal Government pays a rent subsidy for low-
income or displaced families and individuals who are aged or

disabled. The program is administered through local     Pulic
Housing Authorities (PHA). The PHAs contract with private
building owners, who lease the units to the low-income families.
The family pays a portion of the rent and the Federal Government

subsidizes that amount to cover the total monthly housing cost

(including an allowance for utilities).


Eligible families select their own places of residence. Their
portion of the housing cost is the greater of either 30 percent
of their monthly income after specified deductions or 10 percent
of their monthly income with no deductions. The PHA uses Section
8 monies to supplement that payment up to the amount specified
in a contract with the owner of the unit.

Fundina	          100 percent Federal
Federal Aaency	   Department of Housing and

                  Urban Development

Authorization:	   Housing and Community Development
                  Act of 1974 (Public Law 93-383)
Reaulations          CFR 812 et   seq.

PELL GRAS
PurDose: To provide financial assistance for educational costs
to undergraduate students who are in financial need.
DescriDtion:  Postsecondary institutions receive Federal funds to
assist students who demonstrate need for help with the costs of
undergraduate education. Both income and assets are used to
determine the student' s eligibility and the amount of assistance.
Whether the parents' income and assets are included depends on

whether the student is considered to be dependent on, or

independent of, the parents.


A formula is used to determine eligibility and grant amount.
Assets are evaluated to assess the family' s total financial
strength. The value of assets is combined with the income
determined by the formula to be available for education. The
formula takes into account factors such as marital status , family
size , and number of children in school. The formula protects  a
portion of income and assets to reserve them for retirement and
emergencies.
Fundina:	         100 percent Federal
Federal Aaencv:	 Department of Education


Authorization:	   Higher Education Act , 1965 , Title IV-A
Reaulations:	     34 CFR 690

                                  B-4
                                                                        APPENDIX C

                                           NONLQUID ASSETS COUNED BY PROGRA

              The following matrix shows how each of the six programs counts

              specific assets most frequently owned by individuals who apply

              for assistance.




                       Fa STA/                                    SSI                    foICAID            SECTIOI 8          PE GW

 III            Exlu:                  Exlu:             Ex     lu:              Exlu:
                                                                                 Exial: Eqity
                                                                                                         Eq.i ty   caed.   Eqi ty in
                                                                                                                              !X caed.
                                                                                                                                       ex
                                                                                 is caed if in-
                                                                                 dividJl is irsti-                         Exi a-:
                                                                                 tia'l ize a1:                             Total eqity COted

                                                                                                                           stu rd
                                                                                     d: ro plcn to                         if sirgle i        de It   I
                                                                                     re   ha: a1                                   wi th ra

                                                                                 0 ha ra
                                                                                     chi ld
                                                                                              sp,
                                                                                              I. ag
                                                                                                                           pE.
                                                                                       , or disaled                        Valle exlu:   if
                                                                                     acl t ch ild                          displac haer          orl
                                                                                     l ivirg at ha.                        dislocted wrer.

 IMJILE Ba aI u;:                     Eqity in         Totally exlu:             Ei th    AF             01 aJcmi le       Exlu:
               0 Fai r   llet value
                 rN $450 caed
                                      ex               if ne    for              pol icy i:lied.
                                                                                                or SSI

                                                                                                         exlu:.
                                      S150 caed        EllO)
                  if th ally veicle   for er aJo­      nei cal tretJ                                     Eqi ty    caed
                 or if EIO)­          m:i lee Total    if rnified for                                    for all   oth.
                 related.
               0 Exlu: if
                                      eqi ty caed
                                      for oth
                                                       hli
                                                       or if
                                                                        pe,
                 to:
                 pn irc:
                                      veicles.         be
                                                       terin
                                                                  of cl iRBte,

                                                                 , distcr
               - tral la­                              etc. to peor
                 distan for                            esial dlily

                 EllO):                                acivities.       Ot­

                 tMr J:                                wise ,   fai r RBrlet
                 sically hli-
                          :or
                                                      valle in     ex
                                                      $450 for er aJo­
               - l iw in.                             m:i le caed.
               0 Hi   sj of ei                        Total eqity
                 th fai                               caed for oth
                 valle or eqity                       veicles.
                 caed fo all
                 oth veicles.


*Asts of both stu a1             pas, ex Io rated.

**At State'   s q:ial ,   tretJ of as    ca be   !I   libel th AFD or SSI pol icy.





                                                                               C-l
                  FC 51                      AFO                     SSI                          Pf 1 CAID                 SECTIOj 8        PELL   ffT*
                   ExluE                    State' s   cpia'        Eq,i ty in              Eith AFO or SSI             Ex l                 Ex   llL
    (Hasold
                                            to ex l!. or            of   $2 COted.          PJlicy            lied.
                                           CO.
   gc,
  IClothirg,
  letc.

  I RE             Fai r   rret valU!      Eqi ty COed              Eqi ty COed             Eith AFO or SSI            Eqi ty COted. Eq,ity in
                   COed.                   b. an be ex­            b. an be ex­             PJlicy            ied.                        of S2 , (X COted.
  I (Not in-                               cllL for six            cluE for nire
   car
   d.irg)
                                           nx        if rri rg     nx    if rr i            Ex i a':                                     Ex i a':
                                           a go faith              a go fai                             t of                             Total Eqity CCted I
                                           effor to sell.          effor to sell.           beits reive                                   if stLt has no
                                           AFD reive
                                           ciirg six
                                                                   SSI    reive
                                                                   ciirg nire
                                                                                           Ioi le rrirg
                                                                                            fai th effor
                                                                                                                go                       dets.
                                           IIth nut te             IIth nut te
                                           j: id   t:.             j: i d   1:.
                                                                                           sell not         rei re.



                                                                     lcn l.
                                                                   1 f

                                                                   pn
                                                                   ha
                                                                         foe for
                                                                            ca i a'
                                                                   first $6
                                                                   Eqi ty ex      llL.
                  ExluE if
 IUIDE-
  PlIIG           ally   pr
                  ca caisten
                                  in­
                                          Eq,i ty   COed
                                          b. an be ex­
                                          clL. for six
                                                                   Eq,i ty tel cw
                                                                   exluE if
                                                                  d. ret a-l
                                                                                           Eith AFO or SSI
                                                                                          PJlicy            lied.
                                                                                                                      ExluE if
                                                                                                                      Eqi ty
                                                                                                                                        I f a b. i ne ,
                                                                                                                                        Eqity in exce of
                                                                                                                                                           ast

 I (Lcn           wi th fai r   rret      nx if rr i               inc of at leat         Ex i        a':
                                                                                                                      SSOO.               , (X CCted.
 IbJildirg
         pr,
                  valU!; othise           a go faith                 pet.                                                               If a fann , eqi ty
 I eqi
 ISLl ies
                  eqi ty COed.            effor to sell.
                                          AFO reive
                                                                                          bei ts reive
                                                                                          Ioi le rrirg         go
                                                                                                                                        in   ex      of $100   (X I
                                                                                                                      If valU! ex­      COed.
 I veicles                                drirg six                If do't                fai th effor to             ce SS
 letc.                                    nx nut te               d. 6 pet                sell not      rei re.       peag
                                          j: i d   1:.            ent i re eqi ty                                     va lU!
                                                                  COed.                                               en arret

                                                                                                                      sairg rate
                                                                                                                      or inc
                                                                                                                      fra prty
                                                                                                                      is COted
                                                                                                                      Ioi
                                                                                                                      greter.
I LIFE           ExluE                  Ca Slre                   Ca Slre                                             Ca Slre           Ex luE
IIIB                                    valU! COed.               valU! COed
                                                                                         Eith AFO or SSI
                                                                                         PJlicy         lied.         valU! COted.
                                                                  if total fac
                                                                  valU! of all

                                                                  PJl ides a'     in­
                                                                  dividal
                                                                  $150.      If cD
                                                                    ex $150
                                                                  not
                                                                  ca Slre
                                                                  valU! exluE.

Asts of both stLt
-At State' s   cptia'
                           cn j:rets     ex Ii           noted.
                        , tretl of ast an be II libel tl AFO or SSI PJl icy.

                                                                                  C-2
                                            APPENDIX D


                                     REIEW OF PRIOR STUIES
Prior Study Ouick Reference Guide


   s guide gives a quick look at reports briefly described on the following

pages.
  AGENCY        YE        PROG (s)       DEFINITION   VEFICATION   RECOMMNDATIONS REI
  CONDUCTING
  STUDY
                REPORT    REEWD            TRTM       OF ASSETS    FOR SIMLIFYING NO.
                                         OF ASSETS    ADDRESSED?   OR STRNING
                                         ADDRESSED?                ASSET TESTING?
  Illinois        1976   AFDC, SSI,         YES           YES          YES
 Bureau of               Medicaid
 Budget                  Food Stamp,

                         Section 8

                         Hous ing,

                         Pell Grant

 HEW             1977    AFDC    SSI       YES                        YES
                         Medicaid
                         Food Stamp

 GAO             1978    AFDC    SSI,      YES                        YES
                         Food Stamp

 Federal.        1980    AFDC, SSI,        YES                        YES
 Interagency             Medicaid,
 Group                   Food Stamp,

                         Section 8

                         Hous ing


 Dept.           1981    Food Stamp
       YES
 Agricul ture
 GAO             1981    Section 8
                       YES         YES
                         Hous ing


 GAO             1981    SSI                              YES         YES
 GAO             1982    AFDC, SSI,                       YES         YES
                         Medicaid,
                         Food Stamp,

                         Section 8

                         Hous ing


 GAO             1985    AFDC  SSI,                     YES           YES
                         Medicaid
                         Food Stamp,

                         Section 8

                         Hous ing,

                         Pell Grant



                                             0-1
Prior StudY Ouick Reference Guide
                                           (Continued)
 AGENCY           YEA 	     PROGRA (s)     DEFINITION     VEFICATION RECOMMDATIONS
 CONDUCTING	
 STUY	
                  REPORT    REEWD            TRTM         OF ASSETS	   FOR SIMLIFYING NO.
                                                                                         REF
                                           OF ASSETS      ADDRESSED?   OR STRINING
                                           ADDRESSED?                  ASSET TESTING?

 Amerian           1986    AFDC     Food
 Pulic                      stamp
                                              YES
                         YES

 Welfare
 Association
 (APWA)

 GAO               1987	 AFDC, SSI,          YES
                           Medicaid
 Dept.    of ED    1987	 Pell Grant
 Contract/                                                  YES           YES

 Advanced

 Technology

 Inc.
 Westat Inc.
GAO                1987	 AFDC                YES
                        YES

                           Medicaid
                           Food stamp,
                           Section 8

                           Housing
Southern           1988    AFDC
             YES
Governors I                Medicaid                                       YES

Association	
HHS                1988	 Medicaid            YES           YES           YES
HHS               1988	 Medicaid            YES            YES           YES




                                                   0-2

 Selected Prior studY Findinqs and Recommendations



Title of Report #1 : Streamlining Social Benefit Programs


     Agency
Conductinq study     Illinois Bureau of the Budget
                     (HEW Grant)
Date of Release:     Fall ,   1976
Proqrams Reviewed    AFDC , SSI , Medicaid , Food Stamp, Section 8
Housing, Pell Grant


Findinqs and Recommendations    Forty-two needs-based programs

were included in the  study.  Nineteen of these programs consider
assets in eligibility determination. Since over half the

programs have no asset test , it is possible for low-income

persons to be eligible for one program without asset screens but
ineligible for another program where assets are considered.
                                                              The
treatment of assets varies greatly among programs which consider
them in eligibility determination. One reason for the disparity
could be the lack of acceptable standards for what constitutes a
 reasonable" level of  assets.  Where assets are treated
differently from program to program , a recipient appears
 poorer" in some programs than others.
The study also found there is more difficulty and discretion in

valuing assets than in any of the other eligibility determination

factors.   In some programs the caseworkers themselves must
assess the value of real and, personal property. This may result
in an unparallel assessment if each caseworker is responsible for
determining the value of the assets.

Complex eligibility determinants , such as nonliquid assets
confuse both the applicant and the caseworker, making it
difficult for the applicant to understand whether or not he or
she is eligible for various benefits. A growing opinion is that
reform of these programs is    needed.Each program has its own
narrowly defined eligibility rules , resulting in administrative
inefficiencies.
The report recommends a common intake system in each State to
centralize eligibility determination.   Applicants for any of the
needs-based programs (with the exception of Pell Grants) would
have eligibility determined through this single intake
                                                        system.
After intake , the client would be directed to the appropriate
agency.



                                     D-3

Title of Report #2 :   Welfare Reform: National   Summary Report

                       On Regional Outreach

    Agency
Conductinq Studv       HEW

Date of Release:       April 1977

Proqrams Reviewed      AFDC , SSI, Medicaid , Food stamp

Findinqs and Recommendations    The HEW regional offices conducted

a survey of the welfare      system. Over
                                       10 000 individuals and
organizations provided oral and written comments.    The agreement
was that income and , to a lesser extent , assets must continue to
be priority considerations in needs-based programs. However
program complexity of rules and variations from one program to
another were hindrances to meeting basic     needs.Because of this
there was strong and widespread support for easily understandable
and uniform eligibility rules.


Title of Report #3 : Federal Domestic Food Assistance Programs:
                     A Time for Assessment and Change (CED-78-113)
    Agency
Conductinq StudY       GAO

Date of Release:       June 1978

Proqrams Reviewed      Food Stamp, AFDC , SSI

Findinqs and Recommendations   This study reviewed eligibility

criteria in 13 major food assistance programs , one of which was

the Food Stamp program. The study also examined AFDC and SSI

programs as general cash assistance programs designed to provide

recipients with cash for food and other basic needs.
The study found benefit overlaps and gaps , eligibility
differences , administratiNe inconsistencies , and coordination
problems among the programs. With regard to asset eligibility
criteria , the study found that the treatment of assets in the
AFDC , SSI , and Food Stamp programs differs substantially.

The GAO believes there should be a single definition of needy
persons and uniform criteria for eligibility. The report
recommended that Congress and the Federal agencies administering
these  rograms propose consistent income and asset eligibility
requirements. The report also recommended that the effects of
eligibility re lirements and procedures on program participation,
program costs , and work incentives be studied. The results of
these studies should be reported to Congress along with
recommendations for authorizing legislation.

                                    0-4

 Title of Report #4 : Eligibility Simplification                                  proj ect
          Agency
 Conductinq Studv	                               Federal Interagency Policy steering

                                                 Group
 Date of Release:	                               October 1980

 Proqrams Reviewed	                              AFDC , SSI, Medicaid , Food Stamp, Section 8

                                                 Hous ing


Findinqs and Recommendations : A Federal interagency policy

steering group, cochaired by OMB and HHS , conducted this study.
Other agencies participating included HUD , Agriculture , Labor

and the Community Services Administration. The study team

developed a comprehensive analysis and recommendations for

simplifying and standardizing client eligibility among major

public assistance programs.

While various programs may have similarities in goals

requirements , and procedures in eligibility determination , the
programs do not operate as a system to provide services and

        to people.
benefi ts             Each program operates in a highly
independent fashion. An asset in one is not considered an asset

in another.   Eligibility data supplied and verified in one
program must be resubmitted to another program and reverified.
To enable all programs to agree on basic eligibility

requirements , the study team formulated a standard glossary of
defini tions of the elements of income and          Standardizing          assets.
the identification of assets was intended to establish common

defini tions for Federal agencies in developing legislation and
regulations regarding eligibility requirements.


The study team also addressed standardizing the treatment of

assets among programs. This would enable programs to gather and

record basic data on an applicant in a uniform manner, and reduce
the need for multiple                                 forms.
                               Once data are gathered in this
fashion, verification by one program should be sufficient for

others.   Determining financial eligibility for all programs can
be carried out through one central           with the use of
computers , determinations would be more accurate since financial
                                                                     source.
rules regarding eligibility determination are easily programmed.
The study team believed that these recommendations would lay the
groundwork for fundamental reform and improvement in the system.
Some of those recommendations have been implemented

administering agencies since this report was
                                                                                         by the
                                                                               issued.
Specific recommendations relating to nonliquid assets                                      are:
Income-Producinq Property   All programs should adopt a standard

exclusion from the resource test of nonbusiness property which
produces a 6 percent rate of return annually on its fair market
value.  This recommendation does not apply to Section 8 Housing
since it already inputs income from property.

                                                               D-5
Converted Excluded Assets   Food stamp and AFDC should adopt the
SSI policy of excluding the proceeds from the sale of a home for

up to 6 months.


Restricted Use/Inaccessible Assets    All programs should adopt

the study team' s common definition governing the availability or

accessibility of assets:   Resources shall be considered
available to the applicant or recipient and their value included

in the calculation of gross resources if the applicant or

recipient has the right , authority, or power to liquidate the
resources , or his/her share of the resource.
Excl uded but Comminqled Assets  Programs should adopt the Food
stamp policy of excluding commingled assets (joint ownership) for

6 months after initial receipt. Beyond 6 months the exclusion

should continue only if the excludable resource is maintained in

a separate account.


Household Goods and Personal Effects   All programs should

exclude these from assets and use a common definition for these

items.
Vehicles   All programs should exclude from assets vehicles used
to produce income or modified for use by handicapped persons.
Further, all programs should adopt the Food stamp requirement
which includes the fair market value of another vehicle in excess
of $4 500.  This exclusion amount should be adjusted annually
based on the increase in automobile cost.

Life Insurance Policies and Burial Plots/Funds   All programs
should exclude the value of burial plots. Also, all programs
should set the maximum exclusion on the cash value of life
insurance policies and burial funds together at $2 500 per person
and $5 000 per household or family whichever is less.eligibility.
excess of these limits would be countable assets for
                                                       Amounts in




                              D-6

Title of Report #5 : Assets of Low-Income Households:

                     New Findings on Food stamps Participants and

                     Nonparticipants
    Agency
Conductinq Study     Food and Nutrition Service
                     u. s. Department of Agriculture
Date of Release:     January 1981
Proqrams Reviewed    Food stamp
Findinqs and Recommendations :. The report presented findings on

the types and value of assets held by Food stamp participants
and nonparticipants. The principal data base for analysis was a
1979 Survey of Income and Program Participation sample of 11 300
households at all income  levels.  The study concluded that limits
placed on assets exclude many applicants from the program. Asset
limits reduce eligibility for food stamps by 12. 3 million persons
at a savings of $2. 9 billion annually (based on 1979 data).

Data from this study revealed the       following:
     Almost half (49 percent) of the Food Stamp households have
     no countable assets and 91 percent have $500 or less.

     Food stamp recipients tend to have little in liquid   assets.
     Half of the Food stamp households have no car, only

     36 percent own homes , and only 9 percent have life

     insurance. No Food Stamp households in the sample have farm

     or business interest, undeveloped land, estates , or trusts.


    Assets owned by Food Stamp recipients tend not to be worth
    large amounts. For example, 70 percent either do not own a
    car or have less than $500 equity in the car.

    Elderly households generally have assets of greater value.


    Households disqualified from the Food Stamp program solely
    because their assets exceed allowable limits are relatively
    well- off as a group in terms of the types and value of the
    assets they    own.Two-thirds of these households have assets
    (not including equity in homes) in excess of $5 000.




                                  0-7
Title of Report #6 : Further Actions Needed to Improve Management

                     of HUD Programs (CED-81-41)
    Agency
Conductinq studv       GAO

Date of Release:       February 1981
Proqrams Reviewed      Section 8 Housing
Findinqs and Recommendations : This report is a compilation of

prior GAO reports on HUD housing programs    wi th regard to
Section 8 Housing programs , the report cites two prior studies

(CED-79- 51 and CED-80-59). Both document high program costs and
program weaknesses. For example, GAO found that unreported

income and assets are a problem in Section 8 housing proj ects in
Chicago. Agency     staff rely heavily on statements by prospective
tenants.
Li ttle attempt is made to detect unreported    assets.Forty-three
percent of the files sampled in four housing proj ects had
inadequate documentation supporting income and other allowances
such as assets. Because of improper verification by public
housing agencies , the accurate calculation of a tenant I s allotted
rent is not possible.


In testimony before the Subcommittee on Housing and Community
Development , House Committee on Banking, Finance and Urban
Affairs ,   Congressman Andrew McGuire , in April 1979 , stated:
     "At the present time , Section 8 functions on the principle

     that a program recipient will in all cases totally divulge

     his assets and income in the verification process. Given
     the fact that any understatement of income will translate

     into a decreased rent payment , it does not seem unreasonable

     to assume that such reporting may occasionally be
     incomplete. Section 8 has no method to discover all sources
     of household income , if the household does not volunteer
     those sources.


The GAO recommended that HUD strengthen procedures to verify
tenant income and other allowances such as assets by:

     highlighting to all Section 8 program administrators and

     beneficiaries the serious regard HUD places on this matter;

     reaffirming and restating, as necessary, the duties and

     responsibilities of HUD field offices , housing owners , and

     PHAs in carrying out this important function;

     monitoring more aggressively the verification efforts of

     housing owners and PHAs; and


                                  D-8
     devising appropriate penal ties for owners and PHAs who fail

     to adequately perform their verification duties and
     responsibilities , and tenant families who willfully attempt
     to defraud the Federal Government by inaccurately reporting
     income and allowances.


Title of Report #7 : Millions Can Be Saved by Identifying

                     Supplemental Security Income Recipients
                     Owning Too Many Assets (HRD-81-4)
    Agency
Conducting Studv    GAO

Date of Release:    February 1981
Proqrams Reviewed   SSI
Findinqs and Recommendations    In Fiscal Year 1979, more than

$125 million was overpaid in assets due to incorrectly reported
value and ownership of bank accounts and real property. The SSA
estimates that $20 million was overpaid to SSI recipients owning
real property other than a home , such as land valued at more than

the asset limits for eligibility.
recipients did not report it.
Social Security employees failed to identify real property when
                               Interview questions and procedures
did not emphasize real property. The SSA' s regional Office of

Assessment staff found that SSA could better establish ownership

by improved interviewing techniques; yet, SSA , according to GAO

had not adopted the suggested improvement. The GAO believed that

the procedural improvements suggested by regional assessment

staff were reasonable. The HHS agreed with the GAO

recommendation and was acting to improve interviewing techniques

in the SSI claims process.





                                D-9

Title of Report #8	 Legislative and Administrative Changes to

                    Improve Verification of Welfare Recipients 

                    Income and Assets Could Save Hundreds of

                     Millions (HRD-82-9)
    Agency
Conductinq studv	    GAO

Date of Release:	    January 1982

Proqrams Reviewed	   AFDC , SSI, Medicaid , Food stamp, Section 8
                     Hous ing

Findinqs and Recommendations    Underreporting of assets by

recipients in needs-based programs results in erroneous payments

of $332 million , annually as follows:



                            Asset-Related
                           Erroneous Payment
     program*                (Millions)            Time Period
   AFDC                         $ 40               FY 1979
   SSI                           103               FY 1979
   Medicaid                      151               FY 1979
   Food stamp                                      CY 1978
                                $332

*No information available for Section 8 Housing for the time

period.
Current verification requirements and practices are not      adequate
to prevent improper payments. Not  only do verification
requirements vary widely, but they are either extremely   vague or
overly estrictive. In addition, some Federal laws and
regulations preclude the use of information that would
significantly enhance the verification process.

Improved verification systems would help identify unreported or
underreported assets ,thereby reducing the amount of improper
payments.



                                 D-I0

                                                                     .-




Title of Report #9 : Eligibility Verification and Privacy

                    in Federal Benefit Programs: A Delicate
                    Balance (HRD-85-22)
   Agency
Conductinq studv    GAO

Date of Release:    March 1985
Proqrams Reviewed   AFDC , SSI , Medicaid , Food Stamp, Section 8
                    Housing, Pell Grant

Findinqs and Recommendations    Inadequate verification of

 lients I eligibility contributes to erroneous payments of several
billion dollars annually. The definitions and treatment of
assets vary from program to program (and state to State in some
instances) and thus contribute to similar items being considered
or verified in different ways.   The report describes the lack of
uniformity among programs in how reported recipient data are

verified. To ensure proper eligibility decisions GAD believes
that the information must be complete , accurate and current.
Eligibili ty verification becomes important to assure the right
amount of benefits is being paid to the right person.

The report presents actions that Congress and others should take

in streamlining verification procedures , as follows:


     Congress should legislate changes to make eligibility

     factors more uniform and allow programs to verify factors in

     the same way;


     theDMB should aid in simplifying verification across

    programs; and

    Federal agency program managers should coordinate
    verification across programs.




                                 0-11

Title of Report #10    Comparison of Food stamp and AFDC Program
                       Requirements with Recommendations for
                       Change
    Agency
Conductinq studv       National Council of State Human
                       Services Administrators of the
                       American Public Welfare Association
Date of Release:       July 1986
Proqrams Reviewed      Food Stamp, AFDC
Findinqs and Recommendations   The vast majority of low-income

families who receive AFDC also receive food stamps. However
agencies providing benefits to these families must follow
different Federal requirements to determine eligibility. These
requirements differ greatly because the statutes and regulations
which govern these programs have not been closely coordinated.
As a result , erroneous payments occur. State and local agencies
administering the AFDC and Food Stamp programs have expended
significant resources to reduce eligibility errors that cause
erroneous payments. Simplification of eligibility determinations
is essential error reduction. The report recommendations are

based on the premise that needs should be defined the same in

programs that often serve the same population.
Wi th regard to asset testing, the report recommends that Congress

should:
Resource Limits   permi t States to allow AFDC recipients to
retain assets equal to the Food Stamp limit.
Vehicles   Allow all households to have one automobile. If this
is not feasible, allow all households to have one automobile
whose equity value in excess of $4 500 would be applied to the
resource limit.
Life Insurance   Follow the Food Stamp policy and exempt from'

consideration the value of life insurance policies in the AFDC

program. State experience indicates that most AFDC recipients do
not have policies whose value would make them ineligible. The

administrative burden and expense in verifying this factor is not

cost- effective.
Transfer of Asset Policy   Amend the Food Stamp Act to allow

States flexibility in developing transfer of asset policies to
coincide with AFDC policy.

Prepaid Burial Plans    Amend the Food Stamp Act to coincide with

AFDC policy exempting funeral agreements with an equity value

not in excess of $1, 500 for each member of the household.



                                D-12
Title of Report #11     Medicaid: Interstate Variations in
                        Benefit Expenditures (HRD-87-67BR)
    Agency
Conductinq study        GAO

Date of Release:        May 1987
Proqrams Reviewed       Medicaid ,   SSI, AFOC
Findinqs and Recommendations   This briefing report to Congress

identified the trends and variations among states in Medicaid

spending. One objective was to compare eligibility criteria.

While Federal statutes mandate the rules f   determini
eligibility, discretion is given to the states in defining

Medicaid eligibility.


Asset limits for Medicaid " medically needy" programs vary from

state to state but must be (1) as- liberal as the highest asset

limits allowed for cash assistance recipients (AFDC and SSI) and

(2) the same asset limit for all covered groups. In 1984, the
asset limits for a family of two ranged from $2, 250 in 21 States
to $9 500 in North Dakota.

No recommendations were made.

Title of Report # 	     Title IV Quality Control Project:

                        Stage Two Executive Summary

    Agency
Conductinq Studv        Advance Technology Inc. and Westat,   Inc.
                        for u. S. Department of Education
Date of Release:	       August 1987

Proqrams Reviewed	      Pell Grant


Findinqs and Recommendations     Fifty-four percent of recipients

of Pell Grants received incorrect awards (within a $50 tolerance)
in 1985-86   , totalling $763 million. This represents 21 percent
of all  Pell Grant funds paid. About one-third of the award
errors were caused by incorrect information on student
applications. With regard to reported assets , errors in home
equity accounted for $64 million in net payment errors. Home
equi ty errors were the second largest cause of errors.
Dependent students I net assets was the fourth largest cause of
errors , accounting for $35. 5 million in net payment errors.
Since the first nationwide study on errors in 1978-79
considerable attention has been placed on lowering the error rate
in the Pell Grant Program. The 1978-79 study found an error rate
of 31 percent (compared to 21 percent in 1985-85). Increasing

                                   0-13

the validation of student application data , redesigning forms and
procedures ,and conducting quality control have been effective in
reducing some errors. Yet , errors continue to be high in spite
of corrective actions already taken. One area that continues to
be high is in asset testing for eligibility. The following table

is a comparison of how student errors in asset- reported items

ranked in 1982-83 and 1985-86.

Asset-Reported Items                    Rank
                            1985-86             1982-83
Home Equity

Dependent Student I s Assets

Investment Equity

Business Farm Equity

Cash/ Checking/ Sav ings


A significant percent of misreporting home equity, savings , and

dependent students I assets was found to be due to reporting a

zero value for these assets. The study found that erroneously

reporting zero could be cross- checked on the Federal tax form

filed either by the student or the parents. Information on the
tax return can indicate areas where a data item exists but was

not reported on the application.
With regard to further reducing payment errors through corrective

action, the study found that 80 percent of all Pell Grant

recipients are already undergoing some type of validation.

Further reduction in errors will not come from validating more

applications. The most likely way to reduce errors through

validation is by developing better techniques for targeting
validation towards applications and data items (e.g. home equity)
that have proven to be more error- prone.

The report concludes that the Department of Education must either

accept the magnitude of error rates that currently exists by

relying on costly after-the-fact inspection techniques , or

restructure the delivery system to design errors out of the

process.




                                0-14

Title of Report #13    Integration of Services for Low-Income
                       Families/Testimony Before Select Committee
                       on Hunger, House of Representatives
    Agency
Conductinq Studv       GAO

Date of Release:       September 1987

Proqrams Reviewed	     AFDC , Food Stamps, Medicaid , Section 8
                       Hous ing

Findinqs and Recommendations   The testimony was based on four

GAO reports on integration of services. One of the reports

surveyed 50 States to obtain their views on obstacles and actions

needed to enhance integration of services. One of the obstacles

is that programs use different definitions. For example , asset

limits are defined differently among the AFDC , Food Stamp, and

Section 8 Housing programs.


The GAO reported that States desire more simplified and uniform

eligibility requirements among the programs and improved

coordination among legislative committees , levels of government

Federal agencies , and programs wi thin the same Federal agency.
States also desire increased funding for integration

demonstration proj ects.
One option for standardizing or eliminating program differences

is to make all AFDC families categorically eligible for Food
Stamps and Section 8 Housing. All AFDC families are currently
categorically eligible for Medicaid, and about 65 percent of AFDC
families are eligible for Food Stamps.

The GAO testimony concluded that , while eligibility differences

among the various needs-based programs may be more difficult to

resolve than procedural or administrative differences, many

procedural improvements cannot be made until the eligibility

requirements are simplified.





                               D-15

   Title of Report #14          study of AFDCjMedicaid Eligibility
                                Process in the Southern States
                Agency
  Conductinq study              Southern Governors    I Association
  Date of Release:              April 1988
  Proqrams Reviewed             AFDC , Medicaid
 Findinqs and Recommendations : A
                                  family can have income low

 enough to qualify for AFDCjMedicaid benefits but still be found

 ineligible because its assets exceed allowable
example , to be eligible for AFDCjMedicaid
                                           , an applicant
                                                              levels.
                                                            For
                                                            cannot
have over $1, 500 equity in a vehicle. This equity value was
established in 1979 as a result of a survey which showed that

96 percent of Food stamp recipients own vehicles which had

equity value of $1, 500 or less.
                                  This limit has not been adjusted

since 1979. Yet , inflation between  1979 and 1987
Consumer Price Index , would move the equity value ,ofbased  on the

                                                        a vehicle

from $1 500 in 1979 to $2 348 in
                                              1987.
                                         Asset limits have become
more restrictive since 1979 without inflationary

 adjustments. Asset limits on vehicles appear to be

counterproductive 	
                         for   work incentive purposes: having a job
requires dependable transportation.


To address the problem of outdated asset limits

                                               , the study

recommended that the asset limitations in AFDCjMedicaid should be
adjusted to a reasonable level and reviewed
                                                        periodically.
Title of Report #15	           Eligibility Errors Resulting in Misspent

                               Funds in the Medicaid Program

            Agency
Conductinq Study	              Office of Inspector General

                               Department Of Health and Human Services

Date of Release:	              May 1988
Proqrams Reviewed	             Medicaid
Findinqs and Recommendations     Eligibility errors in the Medicaid

program cost state and Federal Governments approximately $1.
billion in misspent funds in Fiscal Year
dollar errors occur in cases where the client is The  1986.
                                                    in ahighest
                                                          medical
care facility. Because this type of care is so expensive
eligibility erros are          costly.                       , these
                                 The study found that these errors
are frequently attributed to unreported

reported , assets , primarily property and, bank
                                            or inaccurately

                                                 accounts.


                                          D-16

One reason for errors is that states continually gr pple with

policy issues that make the containment of errors _ difficult.
This is largely due to untimely and unclear Federal policy and

eligibility requirements which are incompatible with medical

needs. states  have to keep abreast of all Medicaid changes for
various categories of assistance. In addition, since Medicaid

eligibility policy is tied to cash assistance programs (SSI and

AFDC), state agencies administering the Medicaid program must

keep up with the changes in those programs.

Another reason for errors is that no formal network exists for
states to share information on ways to improve eligibility
determinations , and there is no national system to assist states
in ideatifying causes of error and appropriate corrective
actions.
The report recommends that Federal Medicaid policy makers issue
Medicaid policy in a timely manner. This would provide States
wi th sufficient lead time to properly implement the changes.
Federal policies should be written clearly to lessen the
likelihood of different interpretations that could cause
eligibility errors.   The report also recommends offering special
assistance to states having difficulty reducing Medicaid
eligibility errors.   Assistance would include determining the
specific causes of errors and assisting in the design of
correcti ve action measures to address the problem.

Title of Report #16        Medicaid Estate Recoveries


    Agency
Conductinq study      Office of Inspector General
                      Department of Health and Human Services
Date of Release:      June 1988
Proqrams Reviewed     Medicaid
Findinqs and Recommendations    One of the purposes of the study

was to evaluate the extent and effectiveness of Medicaid estate

recovery programs implemented pursuant to the Tax Equity and
Fiscal Responsibility Act (TEFRA) of 1982. Findings indicate
that:   (1) people with very large assets can receive Medicaid
long-term care benefits , although nearly two-thirds of the
nation' s elderly poor cannot qualify for acute or emergency care
under the program; (2) Medicaid eligibility rules are
interpreted and enforced differently in almost every State

frequently to the detriment of the poor and to the advantage of

the affluent; and (3) billions of dollars in state and Federal
funds are expended each year for Medicaid long-term care benefits
wi thout adequate Federal oversight and only nominal State
attention. The potential exists for recycling scarce r sources
by recovering benefits erroneously paid to propertied families.

                                  0-17
The OIG believes that $500 million per year could be saved by
actively promoting Medicaid estate recoveries , even under
disadvantageous current laws.  Even more importantly, however
the OIG believes that facing the certainty of Medicaid estate
recoveries would influence propertied individuals, who now rely
on public assistance by default, to purchase private long-term
care insurance instead. This would eliminate the risk of
catastrophic long-term care costs for such individuals and shift
the financing burden to the private sector.

The report recommends that appropriate actions be taken   to:
    Change Medicaid rules to allow families to retain and
    manage property while their elders receive long-term care.

    strengthen the transfer- of- assets rules so that people
    cannot give away property to qualify for Medicaid.

    Require a legal instrument as a condition of Medicaid
    eligibili ty tosecure property owned by applicants and
    recipients for later recovery.
    Increase estate recoveries as a nontax revenue source for

    the Medicaid program while steadfastly protecting the

    personal and property rights of recipients and their

    families.
    Conduct (1) a thorough audit of current estate recovery
    programs  (2) a study to determine how much equity is being
    diverted through liquidation or transfer of assets at the
    expense of the Medicaid program , and (3) a review to
    evaluate how large a chilling effect the availability of
    Medicaid without encumbering assets affects the
    marketability of private risk- sharing solutions like long-
    term care insurance.




                              0-18

